=
I

C@OCKLE

. E-Mail Address:
Le ga 1 Brie fs contact@cocklelegalbriefs.com

2311 Douglas Street

Omaha, Nebraska 68102-1214
Est. 1923

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 19-123

SHARONELL FULTON, ET AL.,
Petitioners,
Vv.
CITY OF PHILADELPHIA, PENNSYLVANIA, ET AL.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF THE NATIONAL
ASSOCIATION OF EVANGELICALS AS AMICUS CURIAE IN SUPPORT OF PETITIONERS
in the above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b),
being prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes,
and this brief contains 7929 words, excluding the parts that are exempted by Supreme Court Rule
33.1(d), as needed.

Subscribed and sworn to before me this Ist day of June, 2020.
Iam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL HOTARY-State of Mebraska Odeon 4
arene] Aerce. ooo Qndeaw te Oh
4 My Comm. Exp. September ยง, 2028 i

Notary Public (7 Affiant

 
